WAIVER

Supreme Court, U.S.
FILED

OCT 2 8 2020
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

20-407

Nancy Massenburg

•

ITS, Inc., et al

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.
11 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):
1—ted

16(ii" Coo aiAiDrid

t,

0 I am a member of the Bar of the Supreme Court of the United States.
0 I am not presently a memb" the B f s Court. Should a response be requested, the response
will be filed by a Bar me
Signature
Date.

October 28, 2020

Dieter Mauch
E Mr. ❑ Ms. 0 Mrs. 0 Miss
Hedrick Murray Bryson Kennett & Mauch PLLC
Firm
O Box 52394
Address P. .

(Type or print) Name

City & State
Phone

Durham, NC

919-419-3300

Zip
Email

27717-2394

dmauch@hedrickmurray.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Nancy Massenburg

RECEIVED
NOV -2 2020
ME THE CLERK
COURT U.S.
SUPRE

HEDRICK MURRAY BRYSON KENNETT & MAUCH PLLC
ATTORNEYS AND COUNSELORS AT LAW
3100 Tower Boulevard
Suite 925
Durham, NC 27707
Post Office Box 52394
Durham, NC 27717

James T. Hedrick (1928-2018)
Josiah S. Murray, III (1935-2018)
Edwin C. Bryson, Jr.
David S. Kennett
Dieter Mauch
James M. Tatum, Jr

Telephone: 919.419.3300
Facsimile: 919.419.1600

October 28, 2020
VIA FEDEX OVERNIGHT DELIVERY
Clerk of Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re: Nancy Massenburg v. ITS, Inc., et al; Supreme Court Case No. 20-407
Dear Sir or Madam:
Enclosed please find a Waiver on behalf of Lee Air Conditioning, Inc. to indicate it will
not be filing a response brief in the above-referenced petition for a writ of certiorari. As indicated
on the form, I am not a member of the Bar of the Supreme Court of the United States, and
therefore I am not entering an appearance.
If you have any questions, please let me know.

Di ter Ma ch
FOR THE FIRM
Enclosure
c: Nancy Massenburg
Lee Air Conditioning, Inc.

RECEIVED
NOV -2 2020
OFFICE OF TtiE CLERK

SUPREME O_U_U_RI_U S _

